<html>
<title> - INFRASTRUCTURE PROJECT STREAMLINING AND EFFICIENCY: ACHIEVING FASTER, BETTER, AND CHEAPER RESULTS</title>
<body><pre>[Senate Hearing 115-23]
[From the U.S. Government Publishing Office]









                                                         S. Hrg. 115-23

 INFRASTRUCTURE PROJECT STREAMLINING AND EFFICIENCY: ACHIEVING FASTER, 
                      BETTER, AND CHEAPER RESULTS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
         
         
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-783 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 3, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Panos, William T. ``Bill,'' Director, Wyoming Department of 
  Transportation.................................................     5
    Prepared statement...........................................     7
    Responses to additional questions from Senator Carper........    16
Pilconis, Leah F., Consultant on Environmental Law & Policy, 
  Associated General Contractors of America......................    19
    Prepared statement...........................................    21
    Responses to additional questions from Senator Carper........    58
Porcari, John, President of U.S. Advisory Services, WSP Parsons 
  Brinckerhoff...................................................    66
    Prepared statement...........................................    69
    Responses to additional questions from:
        Senator Carper...........................................    78
        Senator Duckworth........................................    82
        Senator Markey...........................................    82

                          ADDITIONAL MATERIAL

Article: Can You Really Make Money With Vending Machines? by 
  Suzanne Kearns, http://quickbooks.intuit.com...................   162
40 Proposed U.S. Transportation and Water Infrastructure Projects 
  of Major Economic Significance, a report prepared by AECOM for 
  the Build America Investment Initiative........................   164
Memorandum of Understanding between the City of Warwick and the 
  Rhode Island Airport Corporation, May 2012.....................   267

 
 INFRASTRUCTURE PROJECT STREAMLINING AND EFFICIENCY: ACHIEVING FASTER, 
                      BETTER, AND CHEAPER RESULTS

                              ----------                              


                         WEDNESDAY, MAY 3, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Boozman, Wicker, Fischer, Moran, Rounds, Ernst, Sullivan, 
Cardin, Whitehouse, Gillibrand, Booker, Duckworth, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Infrastructure is a shared bipartisan priority of all of 
the members of this Committee. It is also a major priority for 
the President. The largest hurdles to starting roadwork is 
getting the needed Government approvals. The costs and delays 
of regulatory red tape can be staggering.
    Washington needs to be smarter about these rules and more 
aware of the effects that they have in communities. We need to 
find ways to get projects started faster, build roads better, 
and make costs cheaper.
    Simplifying these processes will allow for construction 
companies to start hiring and for workers to begin building 
faster; it is a common sense way to boost our economy and 
upgrade our public works. If we find ways to streamline review 
processes, mindful of environmental protection and other public 
interests, then we can initiate projects more promptly.
    More efficient and streamlined regulation can enable 
transportation departments to focus on efforts to improve 
safety and personal mobility, and facilitate economic growth. 
Less time and money and staff effort would need to be dedicated 
to regulatory compliance.
    When we find opportunities to streamline regulation, it 
enables the State Department of Transportation or other 
regulated entities to focus more closely on delivering 
transportation projects and programs and do a better job on 
them.
    Now, there are many reasons to provide more relief to State 
Departments of Transportation. For example, I have concerns 
with subjecting rural States to the same rules as more densely 
populated States. The idea that we would need to have Wyoming 
or Alaska, South Dakota, Oklahoma do transportation traffic 
congestion studies on roads that are infrequently traveled is a 
waste of valuable time and taxpayer resources. Most 
importantly, these requirements meant for more urban areas 
impact a rural State's ability to complete projects.
    I also have concerns about barriers that exist at the 
Federal level that might interfere with applications of 
technologies that can accelerate project delivery at lower 
costs. Modifying these requirements to allow technological 
innovations that can save valuable taxpayer money and speed 
project construction is just common sense.
    We also should remember that in most cases regulation in 
the highway program by the U.S. Department of Transportation is 
regulation of State governments. A citizen could ask whether it 
is really necessary to have one government regulate another 
government. State Departments of Transportation are public 
sector entities; they are concerned with safety and 
environmental protection, and they deserve respect.
    The Wyoming Department of Transportation Director Panos' 
diverse experience makes his participation today particularly 
helpful to the Committee. He has served as an environmental 
regulator, as a construction program executive, and now as our 
State Transportation Agency CEO. He has seen these issues from 
many perspectives, and as the Director's testimony notes, it is 
important to move the projects associated with additional 
funding through the review process promptly, responsibly, and 
get them built. I agree, and I think it can be done 
responsibly.
    So I urge my colleagues to work with me in a bipartisan way 
to find these solutions.
    With that, I would now turn to the Ranking Member for his 
testimony.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Welcome to our witnesses, at least one who has been before 
us. A couple have been before us before, and one of them I was 
just telling about, Senator Inhofe, the work that has been done 
on the omnibus budget bill involving the Diesel Emission 
Reduction Act, and instead of seeing it eliminated or greatly 
diminished, it is actually going to be increased a little bit. 
And I know that is something you and George Voinovich and I 
have worked on a lot, and we appreciate your help as well, 
Leah.
    I am glad to be here with all of you today. This hearing's 
title asks whether we are able to build transportation projects 
faster, better, and cheaper, and that has a nice ring to it. I 
certainly agree with the intent. I suspect we all do. But I 
want to add maybe one other adjective to that list, and it is 
smarter.
    I am sure we all remember stuff that our parents used to 
say to us growing up. I certainly do. My dad always wondered if 
any of it was actually getting through. But among the things he 
was always saying to my sister and me, when we would do our 
chores and not do them well, he would say, if a job is worth 
doing, it is worth doing well. That is what he would say. If a 
job is worth doing, it is worth doing well. And he said that a 
lot. We must not have done our chores so well.
    But out of that I took the idea, I take the idea that 
everything I do I can do better. I think the same is true of 
all of us. That includes all Federal programs. We can do them 
all better, including the ones we have partnerships with the 
States.
    The other thing my dad used to say a lot to my sister and 
me, he used to say, just use some common sense. He said that a 
lot too, not so nicely. We must not have had any common sense. 
But he said it a whole lot.
    And I am thinking of those two things--if it isn't perfect, 
make it better, and just use some common sense--today as we 
approach this hearing.
    When it comes to streamlining legislation, being smarter 
also means understanding how things are working now and 
allowing the existing streamlining measures to be well on their 
way to implementation before we enact new ones that are likely 
to delay the benefits of earlier streamlining measures that are 
still being implemented.
    It is a little bit like you are moving into a house. Maybe 
it is a fixer-upper. It needs a lot of work, and the house 
needs to be painted. And you have the option, you can move your 
furniture in before painting, or you can wait, paint the house, 
and then move in the furniture.
    It is the same kind of situation. I just want us to keep 
that in mind as we approach today's hearing.
    But as we know one tool designed to help public agencies 
make smarter decisions is the National Environmental Policy 
Act, NEPA. When it works as intended, NEPA ensures that Federal 
decisionmakers are better informed through project analysis and 
community engagement. When the NEPA process is well 
coordinated, it can improve project outcomes; it can reduce 
costs and identify conflicts early enough to resolve them 
without delay.
    Unfortunately, there are times when coordination isn't done 
well, and projects are delayed without good reason. That is why 
I supported the 22 streamlining provisions that passed in MAP-
21 in 2012. And again I turned to Jim Inhofe. I know he did a 
lot of work, and our staffs did a lot of work on that. Eighteen 
additional streamlining provisions were included in the FAST 
Act in 2015. Again, kudos to all who were involved.
    But I believe that it is smart to improve coordination 
between agencies. I think it is smart to avoid duplication and 
to focus agency reviews and public input on the projects with 
the most significant impacts.
    I continue to believe that measures intended in the past 
two bills have real promise to improve timelines and outcomes. 
But we will only see those benefits if we give them an 
opportunity to be fully implemented by USDOT and actively used 
by our States, native American tribes, and community partners.
    For that reason, one of our Committee's top priorities 
right now should be, I think, oversight to make sure that the 
existing streamlining measures that we have adopted in the last 
5 years are being fully implemented and effectively implemented 
as a good part of our job.
    Moreover, adopting new measures at this juncture could well 
perform a disservice, if we are not careful, to project 
delivery by delaying implementation of the new authorities for 
MAP-21 and FAST Act. I don't think we want to do that, so we 
have to be smart about it.
    A new report released in March by USDOT's Office of 
Inspector General states that there are real risks in enacting 
new streamlining measures before the old ones are implemented. 
The IG report says that streamlining measures Congress adopted 
in the FAST Act may have perversely delayed the benefits from 
the MAP-21 streamlining provisions, which had to be revised in 
order to incorporate the FAST Act changes.
    In other words, we are already seeing some 
counterproductive effects of adopting additional streamlining 
measures. We must act carefully to avoid doing so yet again. In 
my father's words, let's just use some common sense.
    Finally, we also need to be clear on two critical points 
when it comes to transportation project delivery and delays. 
First, 90 percent of highway projects are already categorically 
excluded from extensive environmental analysis under NEPA. I 
was surprised to learn that. The environmental reviews for 
those projects are completed in a month, on average. About 4 
percent of the remaining highway projects face the most 
extensive reviews, and they are large, complicated projects; 
they are not our vast majority of highway projects, though.
    Second, although environmental permits and reviews take a 
lion's share of the blame for delays, multiple studies and 
reports have demonstrated that project delays more often result 
from causes that are unrelated to environmental laws. Last 
year, a report from the Treasury Department found a lack of 
public funding is by far the most common factor hindering the 
completion of transportation projects. We will not solve our 
underlying funding shortage by cutting environmental reviews 
alone.
    The best way to ensure a timely completion of environmental 
permits and reviews is by bringing all the agencies together to 
coordinate early. However, funding constraints at the Federal 
permitting agencies, such as EPA and U.S. Fish and Wildlife 
Service, do not enable them to engage early in all projects. 
Let's keep that in mind. Unfortunately, the fiscal year 2018 
cuts proposed to EPA and the Department of Interior budgets 
would only exacerbate permitting delays if we adopt them.
    I will also be open to looking for ways to make the 
government more effectively, to improve transparency and 
accountability, and avoid unnecessary duplication or delays. 
Completing projects more quickly brings the benefits of that 
project to a community more quickly, whether it is less time 
wasted in traffic, fewer fatalities, or new access to jobs, 
housing, and other destinations.
    We also know that projects can have real impacts on 
communities and the environment. Congress must ensure that any 
revisions to the way we review projects are going to result in 
smarter processes and better outcomes that will not impede the 
progress we have made to date.
    That it is. All right, thank you all for being here. It is 
great to be with us. Let's have a wonderful hearing. Thank you.
    Thanks, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Carper.
    We will now hear from our witnesses, and we will start with 
Bill Panos, who is the Director of the Wyoming Department of 
Transportation.
    Welcome back to the Committee. Look forward to your 
testimony.

   STATEMENT OF WILLIAM T. ``BILL'' PANOS, DIRECTOR, WYOMING 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Panos. Thank you, Mr. Chairman.
    Chairman Barrasso, Senator Carper, members of the 
Committee, I am Bill Panos, the Director and Chief Executive 
Officer of the Wyoming Department of Transportation.
    Today, infrastructure investment is on the national agenda. 
Yet, delivering the best possible transportation infrastructure 
requires more than money. We also must use each dollar 
efficiently.
    There are ways to reform Federal requirements so that 
transportation dollars can be put to work more efficiently 
while protecting the environment and other public interests.
    We can improve the project review process. We can also 
streamline other regulations. When regulation is not 
streamlined, personnel effort and scarce dollars have to be 
unnecessarily redirected from executing projects to regulatory 
compliance. That is a suboptimal result.
    More specifically, we can improve scheduling for review of 
projects requiring an EIS. Today, Federal agencies can obtain 
more time for review by not concurring in the lead agency's 
proposed schedule. Congress should assume that the lead agency 
will give fair consideration to the scheduling views of other 
agencies, and let the lead agency set the schedule.
    Turning to smaller infrastructure projects, they generally 
receive categorical exclusion treatment for NEPA review. This 
expedited approach helps States use funds more promptly. We 
would welcome additions to the classes of projects receiving 
categorical exclusion treatment.
    Let me add that smaller projects can also be delayed by 
requirements other than NEPA review. For example, a State DOT 
may have to wait months for a determination that no 404 permits 
are needed for a project within an existing operational right-
of-way. This is frustrating, especially when there is no water 
in the project area. We suggest that for cases like that a time 
limit should be placed on responses from other agencies.
    Turning to other regulation, rural States should be excused 
from requirements intended to address urban traffic congestion. 
For example, in the proposed rulemaking notice for the System 
Performance and Congestion Management Rule, the first reason 
provided by FHWA for the proposal was congestion reduction. 
Rural States do not experience anything resembling the 
congestion in heavily populated areas.
    However, under that rule, States must develop computerized 
applications and report on millions of traffic data points. For 
example, Wyoming would report to USDOT the number of vehicles 
on the road halfway between Cody and Casper at 10 a.m. on a 
Monday. USDOT does not need this information from States like 
Wyoming. But it will take time and money for us to comply. That 
will detract from our efforts to advance basic transportation 
improvements, including those intended for safety.
    We also have concerns with stewardship agreements between 
FHWA and State DOTs. These agreements, once brief, now 
routinely exceed 50 pages. Most texts in these agreements is 
standardized, and the subject matter extends beyond the 
provision that give rise to these agreements. For example, a 
State assumes DOT responsibilities for project design, plan, 
specifications, and other similar matters. Yet, these 
agreements require advanced notice or approval of changes in 
many State DOT practices. This includes those for which the 
State supposedly assumed USDOT responsibilities. Statute does 
not require these advanced approvals. Yet, today States have to 
accept these terms in stewardship agreements.
    Instead, requirements for these agreements should be 
established through rulemaking. USDOT should have to include in 
a proposed rulemaking notice justification for requirements 
that are not in statute. The provisions that survive the 
rulemaking process would then supersede the current provisions.
    Before closing, I will briefly comment on infrastructure 
investment. The nation benefits from Federal investment in 
surface transportation infrastructure in rural States like 
ours. Yet, public-private partnerships and other approaches 
that depend on a positive revenue stream from a surface 
transportation project are not a solution for rural States.
    Projects in rural States are unlikely to be able to 
generate revenues that attract investors; however, using the 
formula-based FAST Act approach to distributing funds would 
ensure that all States participate in the transportation 
portion of an infrastructure initiative. It would also help 
deliver the benefits of any increase in infrastructure 
investment to the public promptly.
    In conclusion, as the nation considers increasing 
transportation infrastructure investment, our statement offers 
ideas for streamlining transportation project and program 
regulation while continuing to protect public interests. The 
public won't want additional investments in transportation to 
be slowed down by unproductive requirements, and we hope our 
suggestions are timely and helpful to the Committee.
    Thanks for your consideration and for the opportunity to 
testify.
    [The prepared statement of Mr. Panos follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Barrasso. Well, thank you so very much, and I 
thought those comments were timely and were helpful, and we 
appreciate you being here, and we have some questions for after 
we get through the panel.
    Mr. Panos. Thank you, sir.
    Senator Barrasso. I would like to next turn to Leah 
Pilconis, who is the Consultant on Environmental Law and Policy 
on behalf of the Associated General Contractors of America.
    Thanks so much for joining us today.

STATEMENT OF LEAH F. PILCONIS, CONSULTANT ON ENVIRONMENTAL LAW 
      & POLICY, ASSOCIATED GENERAL CONTRACTORS OF AMERICA

    Ms. Pilconis. Thank you.
    Chairman Barrasso, Ranking Member Carper, and members of 
the Committee, thank you for inviting Associated General 
Contractors of America to testify here today. My name is Leah 
Pilconis, and I am AGC's Senior Environmental Law & Policy 
Advisor.
    I have spent the last 16 and a half years establishing and 
leading AGC's environmental program. AGC members know firsthand 
how to build infrastructure in a safe, effective, and efficient 
manner, but funding has been insufficient to repair and replace 
it. Congress and the Administration must first and foremost 
increase funding for our nation's infrastructure programs to 
ensure that we can address our increasingly dire infrastructure 
backlog.
    In addition to increased funding, AGC has long been 
committed to simplifying the sequential and layered approach of 
the existing environmental permitting process. The chart behind 
me attempts to illustrate how complex it is. The chart 
identifies areas of duplication, as well as each of the 
potential procedural and legal chokepoints that can grind the 
process to a halt or even restart it entirely.
    AGC believes we can make the Federal environmental review 
process faster, better, and cheaper without sacrificing 
environmental protections. AGC recommends expanding the 
meaningful reforms this Committee has helped to enact in MAP-21 
and the FAST Act.
    The current laws provide a mechanism to ensure that leading 
agencies engage in early outreach and meetings with 
participating agencies and stakeholders. But importantly, there 
is no deadline for the Government to complete the NEPA review 
process from start to finish. And where current law does set 
deadlines for agency actions under NEPA or for issuing permits 
and permissions, those deadlines are missed because the list of 
exceptions is as long as the list of approvals you need to be 
in compliance with the 30+ Federal environmental statutes.
    MAP-21 goes so far as to impose penalties on Federal 
agencies that fail to meet deadlines. Even so, these deadlines 
aren't being met, and fines aren't being collected. It is not 
happening because the deciding agency can say the permit 
application was not complete or it is waiting on another entity 
to make a decision. And there is apparently a reluctance to 
elevate disputes.
    The Government also is not conducting Federal and State 
permitting reviews concurrently, even though this is called for 
by MAP-21 and FAST-41. It is not happening because the laws say 
you don't have to do this or these things at the same time if 
it would impact your ability to conduct any analysis or meet 
any obligation.
    Congress should strengthen the time limited schedules in 
current law to make them truly mandatory. There also should be 
a hard deadline for completing a NEPA review. In addition, AGC 
has identified three ripe, high level opportunities for 
streamlining.
    First, Congress should require a nationwide merger of the 
NEPA and the Clean Water Act Section 404 permitting processes. 
Congress should require the Corps to issue the 404 permit at 
the end of the NEPA process based on the information generated 
by NEPA.
    Second, and more generally, the monitoring, mitigation, and 
other environmental planning work performed during the NEPA 
process included in the final EIS and Record of Decision must 
satisfy Federal environmental permitting requirements unless 
there is a material change in the project. Time and money are 
wasted on redoing project analyses and reviews and on 
collecting duplicate information from permit applicants.
    Agencies must break away from always preparing one of a 
kind products from the ground up. Congress should strengthen 
the programmatic approaches in current law and require agencies 
to use the work previously prepared by other agencies for 
similar type projects and for projects in the same region and/
or impacting similar resources.
    Third, Congress must consider a reasonable and measured 
approach to citizen suit reform to prevent misuse of 
environmental laws. These lawsuits can take years to resolve 
and delay or prevent the public from receiving and benefiting 
from cleaner water, safer roads and bridges, and a more 
reliable energy system.
    Congress should clarify requirements for legal standing, 
require bonds to be posted by plaintiffs seeking to block 
activities, and require that enforcement of complex 
environmental rules be enforced only by trained staff of 
Government agencies.
    Thank you again for the opportunity to testify on behalf of 
AGC. I look forward to answering your questions.
    [The prepared statement of Ms. Pilconis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Senator Barrasso. Well, thank you so much for being with us 
and for sharing your testimony.
    I would like to next invite Senator Cardin to introduce our 
next guest and witness.
    Senator Cardin. Well, thank you, Mr. Chairman. It is great 
to have John Porcari back before our Committee. I think most of 
the members of this Committee know he was the Deputy Secretary 
for the United States Department of Transportation from 2009 to 
2013, so he is well known to our Committee.
    We know him for two stints as Secretary of Transportation 
in Maryland. I point out that it is very relevant to today's 
hearing. He supervised the Woodrow Wilson Bridge construction, 
a multibillion dollar connection between Virginia and Maryland 
on I-95. He also was responsible for the ICC, Intercounty 
Connector, which alleviates traffic congestion in this region 
in Prince George's and Montgomery County. He also supervised 
the expansion of the BWI Thurgood Marshall Airport.
    What I think is relevant, he understands the connections 
between highways, transit systems, roads, bridges, tunnels, 
ports, and airports, which I think is very vital for our work.
    He now is the President of the U.S. Advisory Service at WSP 
Parsons Brinckerhoff, a global engineering and professional 
services organization, and Interim Director of the Gateway 
Development Corporation.
    Last, Mr. Chairman, if I might ask consent that the 
statement from Earthjustice and other groups be made part of 
our record.
    Welcome, John. It is a pleasure to have you here.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Senator Barrasso. Mr. Porcari, welcome back to the 
Committee.

            STATEMENT OF JOHN PORCARI, PRESIDENT OF 
        U.S. ADVISORY SERVICES, WSP PARSONS BRINCKERHOFF

    Mr. Porcari. Thank you, Chairman Barrasso, Ranking Member 
Carper. And thank you, Senator Cardin. It is a pleasure to be 
here today, and I truly appreciate this Committee's continued 
leadership on this very important issue through the years.
    My abbreviated verbal testimony is supplemented by a 
written testimony that I have submitted for the record.
    And I have to say this is a topic that I feel very 
passionate about. As Senator Cardin points out, having twice 
served as a State DOT Secretary with responsibility for every 
mode of transportation--highway, bridge, transit, airport, and 
port projects--I have experienced firsthand the frustrations 
that are inherent in delivering large, complex infrastructure 
projects. And I brought those frustrations and hard lessons 
with me to my tenure as Deputy Secretary and Chief Operating 
Officer of USDOT.
    Streamlining the approval processes and delivering better 
projects through a faster, more predictable process is a 
necessary precursor to fixing our nation's broken 
infrastructure. It is clear that together we have made 
significant progress, but much more work remains to be done.
    We have had two successive surface transportation 
reauthorizations, MAP-21 and the FAST Act, that have 
incorporated significant streamlining provisions. Our common 
goal moving forward should be better outcomes in a faster, more 
predictable process.
    With MAP-21, among other things, we have five new 
categorical exclusions, including a CATEX for emergency repairs 
that was used right after its adoption for the Skagit River 
Bridge collapse. It allowed us to combine the final 
environmental impact statement and Record of Decision. It 
allowed NEPA assignment for highway projects, and initially 
only the State of California took advantage of that for highway 
projects. Later, Ohio, Texas, Florida, and Utah did that as 
well.
    That was followed by the FAST Act, which in addition to 
bringing some consistency and predictability to the process set 
deadlines requiring a schedule, and it applies to projects 
beyond transportation for the first time. So for infrastructure 
writ large, we have an opportunity to enact some of the process 
reforms that are out there.
    It also, importantly, allowed funding for dedicated staff 
for highway, aviation, and transit projects in the reviewing 
agencies. I believe that is an underutilized tool that can be 
very effective, in particular for major projects. It also 
permitted concurrent review of a coordinated project plan.
    And this played out in what I think of as a tale of two 
bridges. Both were complicated multibillion dollar replacement 
bridge projects. Both were urgently needed. The difference is 
one is nearing completion, and the other is unbuilt.
    The first one, the Tappan Zee Bridge replacement, the New 
York Bridge, received a Record of Decision in 13 months. We 
believe that is a record. It had all of its other Federal 
approvals by month 15. The Governor, the cabinet secretaries 
for the President were all personally involved in making sure 
this project moved forward, and that is a critical success 
ingredient for major projects.
    A rapid response team, which is the precursor to today's 
Permitting Improvement Council, was formed in response to this 
project to front load the coordination to make it happen.
    In contrast, the Columbia River Crossing, a major bridge 
replacement program for the States of Washington and Oregon, 
received NEPA approval, but not the Coast Guard bridge permit. 
It can't proceed without it. That was a major breakdown between 
two agencies. It required senior level intervention to get it 
back on track. That is the very definition of failure.
    With later outstanding help from the Coast Guard, it 
resulted in a Memorandum of Understanding between DOT and the 
Coast Guard to allow the simultaneous issuance of a Record of 
Decision and the Coast Guard bridge permit. But it is clear 
that showed what should not happen.
    So what were the lessons? First, it is not in legislation, 
but without passionate project advocates--external and 
internal--projects don't make it over the finish line. It is 
elected officials and project professionals alike that are 
committed to the project.
    Front loading the process, getting all the review agencies 
around the table at the very beginning of the process, really 
works. It forces everyone to acknowledge and understand the 
issues. Direct conflicts, and there are some, usually, between 
agencies get resolved and identified early.
    What are the next steps? Let me suggest five things that we 
can build on that work. One is the Liaison Program, where you 
can fund dedicated staff at agencies. It has been proven to 
improve the review times and ensure better outcomes. It has 
expanded to include aviation and transit under the FAST Act. 
This is a cost effective investment for major projects.
    Second, NEPA assignment for highway and other projects to 
the States. As has been pointed out by the Chairman, we work 
under a Federalist system. The States have the primary 
responsibility for delivering projects. The States are capable 
of doing this work. And where it has been delegated, with 
California, Texas, Florida, Utah, and Ohio, they have taken 
advantage of it. Texas reports a 25 percent reduction in 
approval times for major projects. Ohio reports an 
approximately 20 percent time savings in delivering their 
overall program.
    The third essential element for major projects is to get 
the project on the President's dashboard and use the Permitting 
Improvement Council to front load the process and move it 
forward.
    Fourth, concurrent reviews within NEPA are permitted and 
encouraged. They need to be the norm, as has been pointed out.
    And five, outside of the NEPA process, other permits that 
are typically needed, as the other witnesses have mentioned, 
the Corps 404 permits, Coast Guard bridge permits, those can 
run, and should run, concurrently with the NEPA process.
    So what remains to be done? First, we should do no harm. 
Any additional legislative requirements could actually slow 
down the process of implementation of the reforms under MAP-21 
and the FAST Act. We should not permit that.
    Next, reporting back to Congress and the public on review 
and approval times for EA and EIS projects. We pay attention to 
what we measure. We should measure it all.
    And then finally, the Permitting Improvement Council, which 
was set up in the FAST Act, every project of regional and 
national significance should be tracked. It is the single best 
interagency mechanism to engineer better project approval 
process. It is up to the President's direction to name the 
director for that. That is a critical position within the 
Federal Government that could do more than any other single 
element to improve the process.
    Thank you, and I appreciate the opportunity.
    [The prepared statement of Mr. Porcari follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    

    Senator Barrasso. Well, thank you very much for the 
testimony for all of you. We look forward to having a chance to 
hear the answers to your questions, and I will start with 
Director Panos.
    In your written testimony you stated that ``using the 
current predominantly formula-based FAST Act approach to 
distribution would ensure both rural and urban States 
participate in the initiative.'' You went on to say it would 
``also help push the benefits of any new infrastructure 
initiative out to the public promptly.''
    So is it safe to say that increasing funding through this 
formula-based process, as opposed to establishing some new 
process, that is one way to expedite the delivery of additional 
infrastructure spending and that through the use of a formula-
based funding, projects will actually therefore get built 
faster than they would otherwise?
    Mr. Panos. Yes, Mr. Chairman. You know, we can move 
projects through the current program structure faster than we 
could through any new structure that would have to be 
implemented, although, of course, any streamlining reforms 
would be helpful. But certainly the existing process would be 
very effective.
    Senator Barrasso. So you think this is kind of a ready-made 
way to distribute the funds in terms of we should be 
considering this for any infrastructure, any comprehensive 
infrastructure bill?
    Mr. Panos. Yes, Mr. Chairman.
    Senator Barrasso. In your written and oral testimony you 
have laid out a series of additional targeted streamlining 
provisions, and you just made a comment about those. Some 
believe that we should wait until the streamlining provisions 
of the FAST Act are actually implemented before we consider any 
additional streamlining. Can you talk about what your response 
would be to that argument?
    Mr. Panos. Yes, I can, Mr. Chairman. The public is eager to 
improve our infrastructure. An improved process would help 
that. So I respectfully disagree with the argument. And we have 
made it clear on the first page of our written statement that 
we can streamline requirements and processes while protecting 
the environment and other public interests. So we ask that our 
suggestions be considered on their merits. We owe it to the 
public to look hard for win-wins.
    Further, and importantly, Mr. Chairman, some of the issues 
we address were not ripe during the development of past 
legislation. The overreaching rules to monitor traffic even on 
rural routes and HS routes had not been promulgated. Giving a 
fresh look at stewardship agreements wasn't discussed. So we 
simply ask for a fair consideration of our ideas on the merits.
    Senator Barrasso. Thank you, Mr. Panos.
    Ms. Pilconis, the Associated General Contractors believes 
that there are still some opportunities to further streamline 
some of the transportation projects. Now, we all support and 
commend the bipartisan work that occurred when we passed MAP-21 
and the FAST Act, but can you elaborate a little bit on some of 
the limitations of these streamlining reforms?
    Ms. Pilconis. Some of the limitations of the streamlining 
reforms that were----
    Senator Barrasso. Of the streamlining reforms that are 
there in terms of adding some more, yes. Some of the ones that 
have already come forward through the MAP-21 and the FAST Act.
    Ms. Pilconis. Oh, yes, of course. Well, with the reforms 
that have already been passed, some of the limitations really 
lie with the amount of exemptions that are provided within 
those reforms. So, for example, where there are requirements to 
conduct concurrent reviews, those requirements can be waived if 
an agency can say that it would impair their ability to conduct 
any analysis or meet any obligation. Under the FAST Act, they 
don't have to do it so long as they could say that it would 
impair their ability to review the project. So there are 
significant exceptions to the requirement to conduct concurrent 
reviews.
    Similarly, where there are deadlines within current law 
requiring you to complete a review within a certain amount of 
time, so, for example, under MAP-21, there is a 180-day 
deadline for permits, licenses, or other approvals. Within that 
180-day deadline, the agency can say, well, I don't have all of 
the information that I need to say that that application is 
complete, or I am waiting for another entity to make a decision 
before I can move forward. And in that sense the agency, the 
deciding agency is essentially self-policing because they will 
say I don't have the information that I need, so I don't have 
to meet that deadline. And in fact, the lead agency would then 
have to take the initiative to really elevate that to a level 
of dispute to say, no, you do have all the information that you 
in fact need and really, that is just not happening.
    Senator Barrasso. And then are there barriers that still 
exist within the construction industry that might interfere 
with the application of, say, new technologies to accelerate 
some of the project deliveries?
    Ms. Pilconis. I think not barriers, but in fact there are 
many technologies that provide great opportunities. For 
example, now that we have aerial photography, drones, GIS data, 
LIDAR data. In fact, there are so many ways that we are 
collecting information that can be used in centralized data 
bases and accessed via the Internet so that we are not 
repeating processes, so that when you need to conduct a review 
in a situation where it is a similar project or a similar set 
of circumstances or similar ecological or natural or resource 
concerns, you can pull from information that has already been 
collected, that is logged and categorized, and apply it rather 
than redoing it.
    Senator Barrasso. My final question, Mr. Panos, my 
perception is that you have identified a number of ways that we 
can reduce bureaucracy. But there doesn't seem to be anything 
that you have promoted or talked about that actually reduces 
environmental protection. Am I correct that you are continuing 
to protect the environment?
    Mr. Panos. Yes. I mean, we have focused on improving the 
process, Mr. Chairman. In addition, we have addressed some 
areas that are not part of the environmental review process. We 
cut back on some non-productive data collection requirements 
and other requirements. That would enable us to put effort and 
resources into infrastructure, including safety projects.
    Senator Barrasso. Thank you. Thank you very much.
    Senator Carper.
    Senator Carper. Thanks again.
    Our appreciation to all of you for being here and for 
helping us with this. This is a great panel, and I want us to 
use this opportunity to try to develop some consensus, to see 
where you agree, because to the extent that this panel can 
agree, it is enormously helpful to us as we go forward.
    So let me start out with John. We went down a whole list of 
items. You gave us five at the end of your testimony.
    Did he say anything, Leah, that you actually agreed with in 
those five comments? And you may want to refresh your memory, 
and ours as well. Did he say anything in those last five? He 
said there are five things you ought to do.
    Ms. Pilconis. Things that were sticking out to me were 
comments that he was making related to the items that are in 
the FAST Act that are requiring early coordination. There is a 
large amount in the FAST Act that is dealing with the Federal 
Permitting Improvement Council that is requiring early 
consultation, coordinated project planning, the dashboard, 
laying out your timetables. These things are really going to be 
very effective at bringing the parties together very early on 
in the process, getting everybody in the same room and on the 
same page.
    And that is one of the reasons why AGC is suggesting that 
so much is happening during the NEPA process; it is the 
umbrella process where all of the other environmental statutes 
are being brought together, all of the other agencies that have 
any jurisdiction over the process. And in great part because of 
FAST Act, reforms are going to be brought to the table to 
engage in discussion and set some timelines.
    So the information that is generated during that time, the 
data that is collected, the surveys that are done, the 
mitigation plans that are written into the final environmental 
impact statement, that should be used to meet the permitting 
obligations. So that will be helpful.
    Senator Carper. Good.
    I am going to turn the tables. Leah went through a whole 
list of things in about half of her statement, just one after 
the other that we ought to do, could do to help expedite the 
processes and maybe get better results for less money. Just 
thinking back to some of the things that she mentioned, 
anything there that you find had special value?
    Mr. Porcari. Great question, Senator. If I may, first, 
Director Panos pointed out that the vast majority of projects 
are proceeding under categorical exclusion, and we shouldn't 
forget 95 percent or so, there are more CATEX categories in 
broadening that can help those projects. But for the major 
projects, which are the visible ones, the 5 percent or so, the 
type of process that Leah described, where you are front 
loading it, where the collaboration among the agencies is 
required in the beginning so that you don't have conflicts down 
the road, or the a-ha moments late in the process where you 
essentially have to start over, that is both common sense. It 
is encouraged in the FAST Act, and it is something I think we 
all agree, when it happens in practice, you get great results, 
for example, with the Tappan Zee Bridge.
    Senator Carper. All right.
    Mr. Panos, great to see you again. Elaine Chao is our 
Secretary of Transportation. I think she will be a good one. 
She was quoted as saying the other day, the problem is not the 
money, with respect to actually moving projects along, 
transportation projects along. The problem is not the money. I 
had a delightful meeting with her about a week ago, and we 
talked about how money could help solve some of the problems.
    Do you agree the problem is not the money?
    Mr. Panos. Senator, I do agree that the problem is both 
money and process. We have to have both in parallel. As we 
deploy the money, we need----
    Senator Carper. Good. That is all you need to say.
    Leah, do you agree with that? Is it both? Can we walk and 
chew gum at the same time? Is money part of the problem, as 
well as the process?
    Ms. Pilconis. Yes, absolutely.
    Senator Carper. And John.
    Mr. Porcari. It absolutely is. And if I may give a project 
example, the Gateway Project, multibillion dollar project 
tunnel under the Hudson River. We have a 24-month EIS process. 
It is half the usual time. It is the money part that is going 
to hold up the replacement of that 106-year-old tunnel.
    Senator Carper. I just say to my colleagues I think we are 
spending about--I want to say, roughly $56 billion a year out 
of Federal dollars for roads, highways, bridges projects, 
something like that. I think the revenues that are coming in 
are about $36 billion a year. And somewhere those lines cross, 
and we run out of money again, and we need to be serious about 
all these huge backlogs of projects we have across the country. 
We have to be serious about doing something about it. 
Streamlining, fine. We have done some. Is there more that we 
can do? If we use common sense, I am sure there is. But we need 
the money.
    It was the Beatles who used to sing the best things are 
free, but you can give them to the birds and bees; I want 
money. We need some revenue. And the idea of the users paying 
for this stuff, user fee approach I think is certainly a good 
way to go. We have always done that. Those who use roads, 
highways, bridges pay for them; businesses, people. I think 
that is still a pretty good approach.
    Thank you all so much.
    With apologies to McCartney and Lennon.
    Senator Inhofe [presiding]. Thank you, Senator Carper.
    First of all, I ask unanimous consent that included in the 
record a letter from ARTBA, the American Road and 
Transportation Builders Association. It is very revealing. It 
is a statement concerning streamlining.
    Without objection, that will be part of the record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    Mr. Carper. Mr. Chairman, could I make just a quick 
unanimous consent request? I am sorry I didn't do this before. 
I would ask unanimous consent to submit three items for the 
record: CRS Report, testimony from Earthjustice and other 
groups, and USDOT OIG's report that I mentioned in my opening 
statement.
    Senator Inhofe. Without objection, they will be made a part 
of the record.
    [The referenced information follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Senator Inhofe. First of all, Director Panos, nice to have 
you back.
    Mr. Panos. Thank you.
    Senator Inhofe. Your testimony is always revealing. You 
know, there has been a lot of talk about the FAST Act and the 
things that we have done in this Committee.
    Let me just commend the Democrats and the Republicans, 
both, on the Committee that we have done things other 
committees don't do. We not only did the FAST Act, we did the 
Water Act, we did the Chemical Act. So we are kind of the 
Committee that gets things done and works together. And I see 
this as no exception.
    When you were talking about your categorical exclusions, 
the discussion came up, I think it was with the Chairman asking 
the questions, with the question as to why should we do 
anything more until we have completed the exclusion process 
that is already in place. My feeling, and the feeling of people 
from Oklahoma, Mr. Panos, is that we need to be doing both at 
the same time. If you sit around and wait, that is just going 
to stall the things that we should be doing in order to 
streamline these projects. Somehow, I have always associated 
streamlining with how many more miles can we get out of a 
project, or how many more miles and more bridges can we get.
    So I would ask you do you agree with the concept that we 
need to be doing all at the same time? And then, also, the kind 
of delays still associated with exclusion.
    Mr. Panos.
    Mr. Panos. Senator, I would agree that we need to do all at 
the same time, and our proposals really don't have potential to 
be negatively interactive at all with the existing streamlining 
that is going on. Some of the issues that we address, again, as 
I had stated, were not ripe during the development of past 
legislation; today they are, and it is about continuous 
improvement while some of the other streamlining is going on. 
So, to answer your question, I would say both.
    With regards to CATEX, Senator, I would just say, as our 
testimony stated, there are some more categories that could be 
included. We use it frequently in Wyoming and other rural 
States, and more of CATEX would be helpful to us.
    Senator Inhofe. That is very helpful.
    So that everybody knows what is happening, we are in the 
middle of a vote right now. I am staying until the Chairman 
gets back, and hopefully we can get through, Senator 
Whitehouse, as soon as I conclude here. Or in fact, I will even 
interrupt mine so you can get away, if you need to.
    Now, I want to come back to you and ask you for some 
specific projects that you feel would be good to be given the 
privileges of the exclusions that were under discussion.
    Before we do that, Ms. Pilconis, you made some comments, 
and it hasn't been discussed yet in terms of questions, on the 
citizen suits, and the costs and delays that come with these, 
and I would like to have you kind of go over with us what types 
of delays are there. And then when you mentioned there are four 
or five suggestions that came out of the contractors, if you 
were to single that down to one or two suggestions, what would 
that be?
    Ms. Pilconis. Yes, sir, thank you.
    Well, the delays are extensive. I think there is a project 
right now that you can look at in the press, the I-70 project 
in Denver. It is a billion dollar project, and the project 
hasn't gotten off the ground yet because of citizen suits, 
suits that are really attempting to delay or stop the project, 
and potentially just stall it until the 2018 election where 
there may be a new Governor who has a different opinion about 
the project.
    So citizen suits are a problem where it is preventing the 
public from realizing the benefit, as I said, of cleaner water, 
safer roads and bridges, a more efficient and reliable energy 
system. And some of the things that we have looked at are the 
positive improvements in the current streamlining reforms where 
it is shortening the statute of limitations. There are two 
different timelines under MAP-21 and FAST-41. So perhaps having 
a consistent timeline----
    Senator Inhofe. OK, just a minute. I am going to ask you to 
elaborate on that because I am staying here when everybody else 
is gone, so there is going to be plenty of time.
    [Laughter.]
    Senator Inhofe. But let's go ahead. I know that Senator 
Sullivan has to preside as soon as we vote, and he had one 
question he wanted to move in front of Senator Whitehouse.
    Senator Sullivan. Thank you, Mr. Chairman. And Senator 
Whitehouse, thank you.
    I really appreciate the panelists. This is a really 
important topic. We are going to be introducing a bill called 
the Rebuild America Now Act, which relates directly to this 
infrastructure streamlining the permitting process.
    Mr. Chairman, I would like to submit for the record a Wall 
Street Journal article on this topic from December 2016.
    Senator Inhofe. Without objection.
    [The referenced article follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      Senator Sullivan. And my very quick question is, I still 
believe that there are a whole host of things that we can do 
that weren't included in the FAST Act. And again, to the 
Chairman's credit, this is a Committee that gets things done in 
a bipartisan way. But I think there are a number of things, 
whether it is categorical exclusions, whether it is timelines, 
because when you look across the country, you know, it takes, 
on average, 60 years to permit a bridge. It took, in Alaska, 
almost 20 years to permit a gold mine. The average in a GAO 
study from 10 years ago talked about highways taking, from 
beginning of planning and permitting to completion, 9 to almost 
20 years.
    I mean, we still have enormous problems. What would you say 
beyond what was in the MAP-21 and FAST Act, which is a good 
start, but from my perspective we need to do much, much more. 
And by the way, it is not just the members here, but one of the 
things that we are doing with our bill right now is the vast 
majority of the building trades, unions that build things, see 
this as their highest priority. So we are hopeful to get a 
bipartisan bill out of the Committee.
    But what would be the issues that you would focus on that 
aren't currently in the law?
    Ms. Pilconis. I am sorry, I didn't realize that question 
was directed at me. Thank you. I appreciate that.
    We are very much focused on requiring a nationwide merger 
of NEPA and the 404 permit process. We are also focused on more 
generally requiring the monitoring, mitigation, and other 
environmental planning work that is generated during the NEPA 
process, and that is included in the final environmental impact 
statement to satisfy the Federal environmental permitting 
requirements.
    So if I can use the 404 permitting process as an example, 
we are focused in on 404 permitting and being part of the NEPA 
process so that when you complete NEPA, you actually have your 
final 404 permit approval from the Corps, because those 
processes are the longest, they are the most costly. With the 
404 permitting, you have the most disagreements, and we have 
identified in our written statement that that is really where 
you have the most chokepoints. And I say chokepoints because 
with 404 permitting you are bringing in many related 
consultations, approvals, and certifications. So you are 
bringing in other agencies where you are doing a 401 water 
quality certification with the States, you have 408 approvals, 
you have endangered species consultations. Maybe you have 
historic properties. Maybe you have coastal zone management 
issues; migratory birds; wild and scenic rivers.
    All of these agencies--if you are doing 404 permitting 
after NEPA, so it is not happening concurrently--all have to 
get together again and go through the same things that you have 
already discussed during NEPA. It is almost a do-over. Let's 
get it done during NEPA. Let's rely on the information that is 
collected during NEPA. And processing times are further 
extended by many months when the Corps will not accept the 
wetland delineation procedures that have come out of the NEPA 
process. That is creating a lot of uncertainty in the 404 
process. It is increasing the cost of construction.
    Senator Sullivan. Thank you. That is a great idea. We look 
forward to working with you on that.
    And thank you again, Senator Whitehouse.
    Senator Inhofe. Good.
    Senator Whitehouse.
    Senator Whitehouse. Thank you.
    For the record, Chairman Inhofe has led us through a 
considerable number of bipartisan successes in this Committee, 
and I hope that this forum provides the opportunity for another 
bipartisan success in this Committee. But I do think, in order 
for that to happen, what needs to be clear is that we are not 
using the general problem of citing often controversial 
projects as an excuse just to attack environmental regulation.
    I would like to read from a Treasury Department document. 
Forty proposed U.S. transportation water infrastructure 
projects have major economic significance, which on page 6 
concludes that these projects ``face four major challenges to 
completion: (A) limited public resources, (B) significantly 
increased capital costs, (C) extended program and project 
review and permitting processes, and (D) lack of consensus 
among multiple public and private sector entities. A lack of 
public funding is by far the most common factor hindering the 
completion of transportation and water infrastructure 
projects.''
    That sentiment is echoed by the Congressional Research 
Service report, which I would like to ask unanimous consent to 
put into the record, responding to the Philip Howard ``Two 
Years, Not Ten Years'' report, and saying that CRS could find 
no information suggesting that compliance with Federal 
requirements ``delayed'' the project, which this relates to our 
T. F. Green Airport in Rhode Island. Within the timeframe 
available, the planning and the design and the engineering 
phases of development can take years for large and/or complex 
construction projects. Factors that may play a more significant 
role in the development of projects identified in the Howard 
report are primarily the lack of funding, local opposition, and 
design and engineering challenges.
    I would also like to add to the record the Memorandum of 
Understanding that was entered into between the City of Warwick 
and our Rhode Island Airport Authority, which relates problems 
like the Land Acquisition Program, the Winslow Park ballfields, 
the relocation of Main Avenue, historical cemeteries, community 
outreach, and water and air quality, and note that there is 
actually a pending action between the city and the Airport 
Authority over that project.
    So we have a situation in which, very often, projects that 
are not thought through, are not fully engineered, or haven't 
been worked adequately with the local communities then take a 
long time, as the extension of the T. F. Green Airport runway 
did. But if you took out the NEPA process, you would still have 
all those same issues with the local community.
    I will tell you, when you have an airport in a city, and 
the City hates what the Airport Authority is doing, you have a 
problem on your hands. So working through to that Memorandum of 
Understanding was really the important solution in that, not 
undoing environmental regulations.
    I would, on a positive note, describe one incident that 
took place in Rhode Island with respect to deepwater wind. 
Rhode Island is the first State in the country to get steel in 
the water to build offshore wind facilities, and as of last 
week paid electrons are now flowing into the grid and Block 
Island is having lower cost electricity as a result of this.
    Here is what we did. We had a bold State agency that 
decided it was going to regulate in Federal waters. Just go 
ahead and do it. And they put together an extremely wide 
ranging process in which all major stakeholders were brought to 
the table together. They brought in the University of Rhode 
Island to provide factual and scientific support for 
allegations or concerns that were made in that process and to 
run the facts down and provide the best science.
    And the result was that we went quite rapidly through that 
process and did such a good job that when it came time for the 
Department of Interior to provide its review, they basically 
promised Senator Reed and I that they would, if they viewed the 
Rhode Island process as having been adequate, not require a 
whole second process with them. So they looked closely at the 
Rhode Island process; they said you guys did a great job, we 
are done with it, you are licensed, get going.
    The result is that we have steel in the water off of Rhode 
Island, we have people at work, we have boats being built to 
service all of that, we have electrons flowing. And just one 
State over, in Massachusetts, you have Cape Wind that died on 
the regulatory cross because they were never able to organize 
their regulatory process well enough.
    So the lesson that I have learned in the long life of 
looking at these things is that if you really want to move 
projects expeditiously forward, getting everybody in the room 
together, making the process itself more expeditious is the way 
to do it, rather than singling out the environmental aspect of 
a process and blaming that for everybody's woes, and then 
trying to smash the environmental protections that are often 
significant, but not always significant, in these projects.
    So I offer that in the spirit of a manner of going forward 
in bipartisan fashion.
    I saw John Porcari doing a lot of nodding. Do you want to 
respond quickly to that?
    Mr. Porcari. Senator, I think you are bringing up a very 
important point, which is there are a lot of other potential 
issues on projects that we haven't really talked about, 
including community issues. The same principles that we have 
been talking about, front loading the process and getting the 
stakeholders around the table in the beginning, so everyone 
hears the same thing at the same time, is really important. And 
as you unpack these case studies, it is clear that many of the 
things that tripped up these projects for multiple years could 
have been avoided by doing it in a concurrent process with 
everyone around the table.
    Thank you.
    Senator Whitehouse. Thank you, Chairman.
    Senator Barrasso [presiding]. Thank you very much, Senator 
Whitehouse.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Director Panos, in your written testimony you cite concerns 
with subjecting rural States to the same rules as more densely 
populated States. Can you explain to the Committee how these 
requirements impact a rural State like Wyoming or South 
Dakota's ability to complete transportation and infrastructure 
projects in a timely fashion?
    Mr. Panos. Thank you, Senator. As I stated in my oral 
testimony, the kind of requirements take our very limited 
resources in rural States away from doing transportation 
projects, and specifically some safety projects. We simply 
don't have enough people to do all of the things that are being 
required by some of these additional requirements like the ones 
that I cited, the congestion studying the data points for the 
congestion study.
    Again, as I stated in my oral testimony, we simply don't 
have urban congestion in Wyoming, and so to go out and spend a 
number of hours looking at dirt roads and looking at very rural 
highways that have very, very few cars on them, I have traveled 
once on a road, a two-lane road, an NHS road in Wyoming for 4 
hours and did not see another car.
    Senator Rounds. More goats than cars?
    Mr. Panos. More antelope than cars, yes, Senator. So we 
just don't have the same situation.
    And I guess the point is that there are differences among 
the States. And I want to commend the Congress and commend, 
frankly, the U.S. Department of Transportation and this 
Committee for making steps toward those goals. But we are not 
done. There is more to do relative to not just environmental 
process improvement and streamlining, but non-environmental 
process review and streamlining like some of those that we had 
suggested earlier.
    Senator Rounds. I am going to follow that up a little bit 
on something that I think was important you talked about 
earlier. Can you explain how State stewardship and oversight 
agreements are turning into Federal regulations instead of 
oversight? In other words, what can be done to strengthen what 
should be an equal partnership between USDOT and State DOTs to 
streamline the process and make it a substantive partnership 
rather than a back doorway to impose additional Federal 
regulations?
    Mr. Panos. Senator, we believe that the stewardship 
agreements have been an excellent start for us to work in an 
understandable, cooperative way, very efficient way with our 
USDOT partners. So they are a great start. We think that there 
are improvements to be made because of the inconsistencies from 
State to State, particularly with rural States, but also that 
some of them have been used to deliver additional requirements 
that we don't find in statute. And it is these kinds of 
streamlining, this kind of sort of extension of the use of the 
stewardship agreements that we would like to just take a look 
at, work with the Congress and USDOT, and make some 
improvements to those, because it is, and can be, an extremely 
valuable tool for us to move projects forward, a great 
platform, if you will, Senator.
    Senator Rounds. Before I leave this particular line, in 
your testimony you pointed out that requiring the concurrence 
of every other agency that has a meaningful role in the process 
extends the timeline for completion of a project. Can you 
discuss an experience? You have the anecdotes behind it and the 
reason why you share it. Tell us the experience you had with 
this where a project was delayed for this particular reason and 
suggest a solution.
    Mr. Panos. Senator, we have had a project in our North 
Sheridan area, which is close to the Montana border, that the 
lead agency had established a schedule, but the U.S. Army Corps 
of Engineers, with their 404 permit program, did not agree 
with, so they extended the project. And I think I had mentioned 
it in my previous testimony to this Committee that we spent 10 
years on a project that takes 10 months to build. We were able 
to resolve it and get it built, it is under construction now, 
but it took about 10 years to get there, and it was because of 
this issue.
    In our written and oral testimony, one of the solutions 
that the Committee could consider is giving the lead agency the 
authority to establish the schedule with consultation with some 
of the other agencies to ensure that that schedule meets their 
needs, and then deploy that schedule and not have those other 
agencies have veto power, if you will, over that schedule as it 
moves forward. And there would be an appeal process to resolve 
disagreements, and that appeal process even could involve the 
White House at some point.
    But the point is that there could be a process which could 
expedite these projects even further without sacrificing 
environmental compliance, without sacrificing public interests. 
So we believe that that is a possible solution and one that the 
Congress should look at.
    Thank you, Senator.
    Senator Rounds. Thank you, sir.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Rounds.
    Senator Booker.
    Senator Booker. Mr. Chairman, I am grateful.
    Mr. Porcari, if you don't mind, I am going to direct my 
questioning to you. First of all, I am just grateful for your 
leadership. You are really playing what I think is an essential 
role for our country right now as Interim Director of the 
Gateway Development Corporation. I have become obsessed for the 
last 3 years of my life with getting this northeast corridor 
fixed and getting this Gateway Project done. We were able to 
resurrect it from something that had been killed to now 
something that seems to be moving forward. The previous 
Administration put it as part of their presidential dashboard 
and prioritized it.
    Most people have no understanding about, No. 1, that 
northeast corridor region, one of the most economically 
productive regions on the planet Earth. More people travel 
along the northeast corridor by rail than by plane. But more 
than this, it is a vital artery, it is like the jugular vein in 
terms of the arteries of our country. And right now it is being 
constricted to the point where we are seeing every week it is 
eroding productivity, it is undermining the well-being of New 
Jerseyans, as well as others, because of that clogged artery 
and because of the challenges.
    This is a case study, in my opinion, of us going from an 
enlightened American age where we invested in infrastructure 
and knew it was essential for jobs, essential for economic 
productivity, to what is a nightmare era where we took the 
inheritance from our grandparents and trashed it, didn't invest 
it, and are now left with, in this case, from the portal bridge 
to those two tunnels which are just decaying, over a century 
old. It was actually faster to travel along the northeast in 
the 1960s, half an hour quicker, than it is today.
    So you are right there in the center of what is perhaps, at 
least according to the last Administration, the No. 1 most 
urgent infrastructure project in the United States of America 
because of all the economic activity that is essential to that. 
And again, one of the biggest concerns I hear about from my 
residents is how the delays and the unpredictability of transit 
between New York and New Jersey has just undermined the quality 
of life for individuals, making residents of New Jersey move 
back into New York because of that problem.
    So getting this project done is so important. That is why 
your leadership, to me, is so central right now.
    I know you made some comments, while I was off voting, 
about some of the process that is going on right now, the 
environmental review process, and I wonder if you can just talk 
for a second about any of the critical lessons you have learned 
and how that relates to the urgency of getting this project 
completed.
    Mr. Porcari. Thank you, Senator. I appreciate the question. 
As you point out, the Gateway Project is eliminating a single 
point of failure for 10 percent of America's gross domestic 
product, and between the Portal North Bridge, the bridge and 
the tunnel component, both of which are 106 years old, both of 
which were open to passenger service while the Titanic was 
under construction and the Wright Brothers were switching from 
the Model A to the Model B flyer, replacing those single points 
of failure is critical.
    The first part of the project, the Portal North Bridge, is 
100 percent designed, 100 percent permitted. It is ready to go 
subject to funding. It just missing the Federal funding 
component. The local funding component is in place.
    The tunnel component, which by any standards is a major 
EIS, is on an accelerated basis. Instead of what was typically 
a 48-month or more process, it will be completed in 24 months 
or less. We will have a draft environmental impact statement in 
the next 60 days. One of the lessons from this is some of the 
very things that you have heard from the other witnesses and 
myself today, which is you can run the process concurrently. 
You have all the stakeholders in a front-loaded process around 
the table in the beginning, and the other associated permits, 
even outside of the NEPA process, whether it is the Corps 404 
permit, Coast Guard bridge permit or anything else, they can 
today be run concurrently. They aren't always, but they can be. 
And that should be the norm, not the exception. And I think 
that is a place where we all agree.
    So the Gateway Project shows, as well, that one of the 
unwritten but critical success ingredients is leadership, 
internally and externally. Externally, you and your fellow 
Senators from both New Jersey and New York, and both Governors, 
have positioned the project so that it is ready to move 
forward. It would not have happened without that personal 
leadership.
    Senator Booker. And I appreciate that, and this is 
something that I have invested a considerable amount of my time 
in in trying to get this project as expeditiously done as 
possible. But critically, your leadership and that of others 
who have been able to shrink dramatically the usual time it 
gets to get reviews, everything from the early engineering 
specs to the environmental reviews, has been extraordinary.
    I want to just conclude by saying I am really happy that 
Senator Wicker just walked in at this time, because it has been 
a bipartisan----
    Senator Wicker. [Remarks made off microphone.]
    [Laughter.]
    Senator Barrasso. The Chairman recalls seeing you earlier, 
Senator Wicker.
    Senator Booker. And the word around the whole Senate is 
that you were focusing on the issues of your great State, sir, 
and we understand how you are pulled in many different 
directions. But the enlightenment of this bipartisan coalition 
to invest in rail, and you said that the issue for us right now 
is not the speed with which we are getting this done, it is 
waiting for the funding. And I was very happy, with Senator 
Wicker, to come up with a bipartisan compromise to fund rail 
not only in areas like the northeast corridor, but to 
understand that rail is essential for economic growth, job 
creation. Dollars invested in rail produce multiples of return 
that anyone in New York City would celebrate in terms of the 
financial markets.
    I just want to conclude by saying that that was critical 
about the CR that we just did, the bipartisan compromise, and 
right now it is a celebration for the Gateway Project to keep 
the resources there, and I just want to really give credit. 
This is the Committee that focuses on these issues. I know the 
Chairman, I know leaders like Roger Wicker have shown their 
commitment to making strategic investments of public dollars to 
get a boon in job creation and economic growth, and I am 
grateful for my colleagues. Thank you.
    Senator Barrasso. Thank you very much, Senator Booker.
    I would like to next turn to Senator Wicker, who has worked 
closely with me on issues related to his home State of 
Mississippi and has continued to be focused on infrastructure 
needs there.
    Senator Wicker.
    Senator Wicker. Well, thank you very much. This is a 
typical morning where I rush from a vote, after having attended 
two hearings, two very important hearings on national defense 
and connectivity. So it is regrettable that I had to miss the 
testimony. But I certainly want to be here, Mr. Chairman.
    And to my friend, Senator Booker, as a statement, first of 
all, about the importance of infrastructure and say that it 
seems to me that this might be one of the big areas that we 
would go ahead and address quickly on a bipartisan basis, 
because there is bipartisan support for infrastructure. Of 
course, we are here today talking about transportation 
infrastructure.
    I have a couple of questions regarding challenges and 
roadblocks for the entire panel, and also a question about 
rural States like mine versus urban States like New Jersey, 
perhaps.
    There are certainly regulatory hurdles. Can any of you 
talk, though, about the legal hurdles? And is there something 
to be said for legislation attached to any infrastructure bill 
about a certain timeframe in which the courts hear legitimate 
concerns, but it is not dragged out forever and ever?
    Let me ask about that, if anybody would like to touch on 
that, and then I might have a moment or two to ask about the 
differences in getting to urban areas, where there is a lot of 
toll roads, and rural areas like Mississippi where there are 
none.
    So, Mr. Panos, were you prepared to talk about the legal 
challenges?
    Mr. Panos. Senator, on the timing not so much, but I can 
talk a little bit about we were speaking earlier about the 
delegation to States of NEPA authority, and that some States 
have taken that on. Not a lot of smaller States have, and one 
of the reasons is a legal issue. The liability associated with 
taking on those responsibilities is significant for a small 
State, and it is a consideration for us, in addition to the 
capacity that we have to exercise sort of NEPA authority.
    Also, we deal mostly with projects that are CEs or CATEX 
projects, categorically excluded projects. So we don't really 
have a need to do that. And frankly, even if we had the 
opportunity to take on that authority, we may not do that.
    So that is the only legal side.
    The second part of your question, I apologize, Senator.
    Senator Wicker. Well, let's let others discuss the lawsuit 
impediments, and then I might get back to the other about the 
small States versus large States.
    Mr. Panos. Thank you, Senator.
    Ms. Pilconis. Sure. Thank you. So there are timelines 
within current law, setting a statute of limitations. There are 
different timelines in both MAP-21 and FAST-41, so there might 
be some merit in synchronizing the timelines. One is 150 days; 
one is 180 days.
    Also, in FAST-41 there is a sort of get-in or get-out 
provision, so if you need to have been involved in commenting 
during the NEPA process and have commented on the issue in 
sufficient detail to have grounds, then, to bring a lawsuit, I 
think that Congress should consider making that an across the 
board requirement.
    In addition, you might want to further consider and clarify 
the requirements for legal standing in general. AGC members 
have brought up the idea and suggested requiring that bonds be 
posted by plaintiffs seeking to block activities.
    And with regard to environmental statutes, so not the 
procedural requirements, but actually the 20 environmental 
statutes that have citizen suit provisions, so those statutes 
obviously have resulted in hundreds and hundreds of 
environmental regulations that are very, very complex and 
difficult to understand, and have a lot of gray areas. So we 
would suggest that the enforcement of those very complex 
Federal environmental rules be enforced only by trained staff 
of Government agencies.
    Senator Wicker. OK. Well, Mr. Chairman, if I might, since I 
touched on the other, and since Mr. Panos mentioned it in his 
written testimony, what I want you to do, if you don't mind, 
sir, is elaborate on the concern that you expressed on page 8 
about public-private partnerships and approaches that work in 
the more densely populated States and might not work in States 
like Wyoming and Mississippi.
    Mr. Panos. Senator, in my written testimony as well as 
previous testimony in front of this Committee, I talked a 
little bit about the application of private-public partnerships 
in rural States. First I would say that it depends, I think, a 
lot on how you define public-private partnerships. There is a 
lot of variation in people's perceptions about what is and what 
is not a public-private partnership.
    In our case, I think public-private partnerships in rural 
States are not the solution. We don't have toll roads, as in 
your State. It is unlikely that we will have the kind of equity 
and the kind of economic value that would be attractive to a 
public-private partnership in some of the definitions that I 
have heard.
    Now, we do have an opportunity to do what we will call 
creative contracting, and bring in private partners to help us 
with warranties and other kinds of things associated with 
projects, but certainly public-private partnerships where there 
is an up front investment of capital just simply doesn't have 
the kind of return in rural States that it does in urban 
States.
    Senator Wicker. Thank you very much.
    And thank you for your indulgence, Mr. Chairman.
    Senator Barrasso. Well, thank you very much, Senator 
Wicker.
    And by the early bird rule, Senator Fischer is next.
    Senator Fischer, thanks.
    Senator Fischer. Thank you, Mr. Chairman.
    And thank you to our witnesses today.
    Director Panos, thank you for being here again. In your 
written testimony you advocate for waiver authority for the 
Federal Highway Administration to be able to provide relief for 
rigid rules when unforeseen circumstances arise that can 
severely delay our projects. Could you elaborate on the value 
of these waivers and how they might facilitate greater 
innovation and compliance?
    Mr. Panos. Senator, anything that can offer us a 
partnership which will perform better is a good thing. And 
there are times when waivers can be effective and not impact 
environmental compliance or environmental needs or public 
interests. So when those conditions occur, it would be optimal 
for us to have a waiver system that is regularly exercised that 
allows for projects to move forward, and focused on regulatory 
requirements, specifically focused on regulatory requirements. 
It would be very helpful.
    Senator Fischer. OK. Thank you.
    Ms. Pilconis, in your written testimony you go into really 
quite extensive detail regarding NEPA process and the 
cumbersome permitting process, the requirements for our 
infrastructure projects. Certainly, each of us here wants to 
protect the environment and protect our precious natural 
resources. But from my perspective, we now have a process in 
place that is not only expensive, I think it is inefficient.
    Last week our Nebraska Governor signed a bill into law that 
would allow the Nebraska Department of Roads to assume 
authority over the NEPA process, and we currently have several 
States that have that same process implemented, like Ohio and 
California, Florida and Utah.
    From your perspective, has this been a successful endeavor, 
and would you recommend that more States assume that NEPA 
permitting process?
    Ms. Pilconis. Thank you for the question. That actually is 
not something that we have explored in our recommendations, the 
State assumption of the NEPA process. What we have really been 
most focused on is the concurrent review and issuance of the 
permit during the NEPA process, so that you don't have the 
permitting come after the NEPA process is complete. We are not 
focused on excluding anything, but rather avoiding duplication, 
so that you are not trying to complete the same consultations 
and reviews a second time.
    Senator Fischer. Now, have you found, though, when that 
permitting process works together, I would assume that it works 
more smoothly. But do you still have a lot of back and forth? I 
see that. I see that, that the Federal Government comes in and 
requires more, and then the State has to answer. Does that help 
eliminate that at all? Time is money when you look at 
infrastructure projects.
    Ms. Pilconis. So a good way to explain it, and something 
that I think the chart that we have prepared illustrates, is 
how much duplication that you have throughout the system. So 
within the NEPA process, it is kind of----
    Senator Fischer. The famous chart.
    Ms. Pilconis. Yes, the famous chart that is at the very 
top. So if you have any project where you are on Federal land 
or you have Federal funding or you need a Federal permit, you 
are going to be going through the NEPA process; you are going 
to be bringing in all of the other environmental statutes where 
they are having some kind of impact on the project. And all the 
agencies that are related to jurisdiction over those programs 
are all coming to the table.
    So let's say you have a project where you are evaluating 
endangered species, historic properties, Coastal Zone 
Management Act issues. Now, those same issues, endangered 
species consultation, coastal zone management issues, historic 
properties, they are triggered again with every single Federal 
permit. So if you were to follow the color tracks down, if you 
need a 404 permit for your project and you are doing that 
separately, after NEPA, you again are doing endangered species 
consultation and those other steps. If you need a NIPT 
stormwater permit, again.
    So the amount of time that it takes to get all those 
parties together and to reengage in those conversations, if you 
were benefiting from the streamlining provisions that we have 
in place, having early outreach, meetings, and involvement, 
everybody at the table during NEPA, let's get it done, use the 
work product from the NEPA process and not be repeating 
efforts.
    Senator Fischer. Well, hopefully we can achieve that and 
cut back on some of this duplication, because we do have 
limited resources when it comes to these projects, and as I 
said, time is money when it comes to infrastructure. And if we 
are going to invest in the future, we have to be able to 
stretch taxpayer dollars and make them really count. So thank 
you very much.
    Senator Barrasso. Thank you, Senator Fischer.
    Senator Capito.
    Senator Capito. Thank you.
    I want to thank all of you and extend apologies for not 
being here for the beginning. We are all running between our 
various committees, and we were over on Commerce, too.
    We have spent a lot of time, and I am going to jump into 
the public-private partnership discussion. The consensus seems 
to be that P3 is ideal for projects, but as we have talked 
about, for rural America not quite so easy.
    I would like to talk about, shortly, an example of 
something that is most unusual, and I wanted to see if anybody 
had run into this kind of a case.
    Last week I participated in a stakeholder meeting with 
Congressman Evan Jenkins from West Virginia to discuss a 
project called the King Coal Highway. To make a long story 
short, a coal company is seeking to operate on a stretch of 
land that would become part of the highway. The State and local 
governments are working with the private sector to have, with 
the relevant 404 permitting, terms requiring it as the land is 
returned, which they are required to return the land after 
mining activity, that it would become flattened, and it would 
become pavement-ready, which, in a State like ours, is pretty 
difficult sometimes for the State Department of Transportation 
to lay down a stretch of highway.
    This would all of the stakeholders to coordinate--this has 
been going on for years, years, and it has been stonewalled, 
and we are back at it again. But it would cut construction 
costs for the State to the tune of about $110 million.
    So I am curious to know, Mr. Panos, have you run into any 
kind of unusual P3 projects that are sort of nonconventional 
like this in your State?
    Mr. Panos. Senator, I can actually give you two examples 
that are, as you have described, nonconventional P3 projects. 
One is exactly or very much like what you just talked about, 
the replacement of a road by a coal mine associated with their 
work. They needed to get to an area where there was a State 
highway, and we simply negotiated with them over a period of 
time to replace that State highway with another State highway, 
frankly, an upgraded one, and they did that. And then we turned 
over----
    Senator Capito. Was that just a State-to-State transaction? 
Were there Federal----
    Mr. Panos. It was a Federal-State-county-city interaction.
    Senator Capito. OK.
    Mr. Panos. But it was recent, in the last year. We have, 
like your State and like your example, have done it very 
frequently.
    Another example of a nontraditional, I guess you would say, 
and it is not really a P3, it is more of, again, this idea of 
creative contracting.
    Senator Capito. Right.
    Mr. Panos. We have one of the largest snow fence 
inventories in the United States, I think the largest snow 
fence inventory in the United States. A private sector company 
actually, once we model where the snow fences need to be, they 
install, maintain those snow fences at no cost to us. The 
return to them is that they use the wood in the furniture 
making market and in the flooring market and things like that; 
it is aged barn wood, as you can imagine. So that is a creative 
contracting, but not a P3. This isn't something that they put 
the up front capital into; we do, did, and now they are just 
replacing it as we go forward. So it is a little untraditional, 
but can be looked at that.
    And those are two examples, Senator.
    Senator Capito. Very interesting. The first one sounds like 
it has a lot of similarities for what we have been trying to 
accomplish in a very expensive place to build a road. It would 
be a great way to open that up for economic development.
    I was just in Commerce Committee, and we were talking about 
deployment of broadband. And according to the 2016 FCC 
Broadband Progress Report, my State is the 48th best connected. 
I am wondering how does that sound? It sounds good, but it is 
not good. And Wyoming is number 44, because of lack of 
population density, large area of difficult terrain, all the 
different areas.
    Senator Hatch has introduced a bill called Highway Rights-
of-Way Permitting Efficiency Act, which is cosponsored by me, 
Senator Ernst is on the bill, Senator Fischer, that will allow 
the Secretaries of Interior and Agriculture to enter into 
Memoranda of Understanding with the States to allow them to 
approve broadband deployment through Federal lands and to make 
the ease of laying that cable through our States. So it is 
almost a dig once kind of proposition, but it would really 
help, I think, so that we wouldn't have to have redundant 
permitting approvals.
    I am wondering, obviously Wyoming has great need in the 
broadband deployment area. How does that sound to you?
    Mr. Panos. Senator, it sounds excellent, and it is 
something that we are already deploying with some of our State 
rights-of-way and broadband to connect our schools, our public 
schools and our rural communities. So I don't know if we are 
ahead, but we are certainly on our way toward that goal.
    Senator Capito. Thank you.
    Ms. Pilconis, do you know of telecommunication 
infrastructures that are already being used in existing rights-
of-way, this concept?
    Ms. Pilconis. No, I am sorry, I am not familiar with that.
    Senator Capito. OK.
    All right. Well, I think my time is up.
    Thank you, Mr. Chair.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Ms. Pilconis, Iowa DOT works closely with the U.S. Army 
Corps in obtaining 404 and 408 permits, and I have been told by 
the folks at IDOT, or Iowa DOT, that the Section 408 permit is 
required prior to the issuance of a Section 404 permit, and 
that a streamlining effort to make the 404 and 408 permits 
simultaneously would be very helpful.
    Can either of you comment on this, or can any of you 
comment on this? And relatedly, can you also explain why AGC is 
so focused on the 404 permitting process just in general?
    Ms. Pilconis. Sure. Thank you. The 408 approval process is 
currently something now that is required by law that does come 
before the 404 permitting process, and that is something that 
our members have identified as a step that is drawing out the 
length of time it takes to get approval on a 404 permit. So, in 
fact, that is kind of an extra step in the process. It is 
something that we have identified in our chart that I continue 
to refer to.
    So, within the 404 permit process we are so focused on that 
and the concept of merging that with the NEPA process because--
and I have mentioned this already--that is a permit that is one 
that is the longest to obtain when you are obtaining an 
individual permit. Data showed that it is, on average, 788 
days. It is the most costly, $270,000 per project. So if you 
are doing that after the EIS, you are talking about a large 
amount of money and a very long time.
    You have the most disagreements, or as I identified in my 
written statement, we call them chokepoints in the process, and 
that is likely because of the many related consults, approvals, 
and certifications that go into 404 permitting. So, as you 
said, at the onset it is do I need a 408 approval.
    But in addition, because it is a Federal permit, it is also 
triggering Endangered Species Act consultation, 401 water 
quality certification with the State, historic properties, 
Coastal Zone Management Act issues.
    Those same things, though--and I want to point this out--
are also triggered with the 408 approval. So if you have a 
Federal approval or permit, there are certain things that are 
triggered. So that is the duplication that AGC is trying to 
stress. You have those same agency consultations happening at 
NEPA; you will have them happening with the 408, and you will 
have them happening with 404. Therein is the extreme 
duplication.
    Senator Ernst. I appreciate that. And what we would like to 
see, of course, is a much more efficient process going through 
that and hopefully, then, less costly, as well, to do those 
projects.
    Mr. Panos, Iowa is a pay-as-you-go State, pay-as-you-go 
funding State for major transportation investments. As you are 
aware, there is a fiscal constraint requirement for planning 
that requires indication that there is enough revenue available 
to construct a project in statewide metropolitan transportation 
improvement programs. This requirement causes Iowa significant 
challenges in timely development of major projects such as 
Mississippi River crossings and projects that would be on the 
shelf, ready for funding on short notice.
    It is my understanding that when you are at the beginning 
stages of the project planning, and you are a pay-as-you-go 
State just like Iowa, this adds additional hurdles to project 
development. It is kind of that chicken and egg situation, you 
know, which came first.
    Has there been any discussion of providing reasonable 
flexibility with this requirement or decoupling this from NEPA 
approval to allow construction-ready projects to proceed 
through environmental reviews and continue to progress as funds 
become available for pay-as-you-go States like Iowa?
    Mr. Panos. Senator, as in my written testimony, in fact, it 
is one of the suggestions that we make for improvement to the 
process as we move forward, and it is something that the 
Congress could consider, should consider as we move forward, is 
the idea of pay-as-you-go and the decoupling of it. Not 
completely, but there can be some flexibilities in that 
process.
    Senator Ernst. Very good. I think we would all appreciate a 
little more flexibility and efficiency.
    Thank you, Mr. Chair. I will yield back my time.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Carper. Thanks, Mr. Chair.
    Mr. Panos, I looked back through your testimony, and I read 
just a short paragraph. I will say it again. ``To some extent, 
the increase in the percentage of highway projects receiving 
CATEX treatment''--I had to look that up, what is it, 
categorically excluded?--categorically excluded treatment 
``results from the increasing emphasis given to preservation 
type projects within State DOJ budgets. That has been the case 
in Wyoming where, in recent years, nearly all projects have 
been categorically excluded under NEPA.'' Is that true?
    Mr. Panos. That is true, Senator.
    Senator Carper. And it says nearly all. I think in my 
testimony I said as many as 90 percent are categorically 
excluded from NEPA. Is it like closer to 100 percent?
    Mr. Panos. I don't know the exact percentage, but it is 
significant, and it is primarily the way we go because we are 
preserving our highways and not expanding them.
    Senator Carper. OK. I am going to ask you a question for 
the record just to see if we can nail that down more 
accurately, OK? Thank you.
    Let me come back to funding. We have a project in southern 
Delaware. We have three counties in the county seat of Sussex 
County, which is in the south. Third largest county in America. 
The county seat is Georgetown. They have an airport just 
outside of Georgetown called Delaware Coastal Airport. They 
just renamed it Delaware Coastal. And they were trying to 
extend the runway length to 6,000 feet so that we can bring in 
bigger airplanes to undergo significant work that goes on at a 
company there called Aloft. And we are having a hard time 
getting this done expeditiously.
    The county has finally actually come in. We have already 
extended the runway once another 500 feet. The county has said 
we will pay for that just to get it moving, so we said that is 
good. Now we have to move a road and kind of align one road 
with another road, better intersection. And I met with our 
secretary of transportation--gosh, a month ago, a terrific 
woman, Jennifer Cohen--and I said how are we doing on our 
project, and when is it going to be done? I think she said in 4 
years. I said, you have to be kidding. You have to be kidding. 
It has taken like a number of years already because they didn't 
have any money, or enough money to pay for it along with other 
projects.
    We have another big project up in Wilmington. I-95 comes 
right by Wilmington. Northeast corridor comes right through 
Wilmington. Eleventh busiest train station in the country. We 
have a wonderful riverfront there on the Christina River called 
the Riverfront, and we are trying to find a way to get ingress 
and egress out of the Riverfront; it is not very good coming 
off 95.
    On the other side, to the east, we have State Route 13, 
which is a major north-south road, and we have gotten money to 
do an ingress-egress off Route 13 into the Riverfront, and it 
has taken 10 years, and a big part of the problem is money. 
Money.
    If you were giving us some advice as to how to raise some 
money for roads, highways, bridges projects as we look forward 
to filling--it is not the cupboard is bare, but there is a lot 
more demand, as you know, than there is money to meet the 
demand. But just give us a couple of good ideas.
    Leah, do you want to go first, please? I think you all have 
been very supportive with some other ideas in the past, but 
give us a couple good ideas, please.
    Ms. Pilconis. The funding issue is not where my expertise 
lies, my focus really is on the environmental issues.
    Senator Carper. That is fine.
    Ms. Pilconis. But AGC definitely does recognize that the 
primary challenge to being able to build more infrastructure, 
of course, is the funding. We have noted in our testimony that 
Congress has not raised the primary source of infrastructure 
funding, the Federal gas tax, since 1993.
    Senator Carper. Since when?
    Ms. Pilconis. 1993.
    Senator Carper. That would be how many years? Twenty-four 
years.
    [Laughter.]
    Senator Carper. That would mean that the gas tax, what is 
it, 18 cents, is worth about less than a dime----
    Ms. Pilconis. Yes, we do that calculation.
    Senator Carper. Less than 15 cents. Is that right?
    Ms. Pilconis. Also terrible at math.
    Senator Barrasso. The Senator is leading the witness.
    [Laughter.]
    Senator Carper. And you are doing a great job of following.
    Ms. Pilconis. In terms of surface transportation, Congress 
and the Administration must restore solvency to the Highway 
Trust Fund. So we are pointing those things out in our 
statement.
    Senator Carper. Thank you. For someone who is not the 
expert on this, AGC did great.
    John, same question.
    Mr. Porcari. It is an excellent question, Senator. I would 
first point out that local jurisdictions throughout the United 
States do self-help measures. Referendum and other measures 
have been raising revenues for important projects. So the local 
and State component is typically in place. The Federal 
Government is a less reliable partner on the funding side than 
it used to be, and that, in practical terms, impacts on both 
the kind of projects you described. Typically, the larger the 
project, the more the uncertainty hurts the project, and that 
will be, I think, even more prevalent in the future as you look 
at these large projects.
    So as important as the discussion is today about 
reengineering the process, greater efficiencies, more 
concurrent process, all of which we support, that only helps if 
the money is there to actually build the project at the end of 
it. And in my practical experience with major projects, in 
particular at the State level, you are not nearly as driven to 
complete the environmental process and other permitting 
processes if you don't know the construction money is there at 
the other end.
    Senator Carper. That is a great point. That is a great 
point.
    Mr. Panos, Bill.
    Mr. Panos. I would only say that, as has been said, fully 
funding the Highway Trust Fund I think is important. The idea 
of funding and process improvement together, links together, I 
think is important. But you know, the Federal financing of 
transportation infrastructure is complex, and I wouldn't 
purport to tell you how to do it, but certainly it is going to 
be very important that we figure this out, because it is going 
to take both money and process improvements as we go forward.
    Senator Carper. Good.
    Later today we will have some folks in. There is a 
Northeast Corridor Commission that is going to be in town, and 
they are going to spend some time with us later today and talk 
about the really serious need for infrastructure improvement up 
and down the northeast corridor. I think our freight railroads, 
for the most part, are in pretty good shape; you know, they 
largely fund themselves through their businesses.
    But I think it is under the FAST Act we created an 
initiative that calls us to look really closely at an idea that 
I call vehicle miles traveled. The North American car of the 
year, Chevrolet Bolt, gets 240 miles per charge. Yesterday I 
drove a vehicle, a Honda. They have the Honda Prius. Not the 
Honda Prius--oh, gosh, several models of Honda, and they have a 
new model they are just introducing called the Clarity, like 
the Accord and all that stuff, but it is a new model, and they 
come in battery, just battery; they come in fuel cells, just 
fuel cells, and they get something like 350 miles on a charge, 
fuel cells on hydrogen. And those vehicles, General Motors Bolt 
will not use any gas or diesel. The car I drove yesterday, fuel 
cells, Honda, won't use any gas or diesel. And we need to come 
up with ways more and more vehicles like that enter the roads 
to make sure that they are going to pay for these roads, 
highways, bridges.
    So vehicle miles traveled can be a good way to do that. If 
we are smart enough in this country to develop vehicles that 
can drive without a drive from coast to coast, we ought to be 
able to figure out how to do it. The smart way would be vehicle 
miles traveled irrespective of privacy.
    Thanks, Mr. Chairman.
    Senator Barrasso. Well, thank you very much for your 
comments.
    I want to thank all of you for being here today and for 
your testimony.
    The hearing record, of course, is going to be open for the 
next 2 weeks because other members may put in written 
questions. I know you had suggested that you had a written 
question or two.
    I want to thank all of you for your time, your testimony.
    The hearing is adjourned.
    [Whereupon, at 11:45 a.m. the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
  
                                 [all]
</pre></body></html>
